               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Corporate Succession Planning
                  Program

         Management Advisory Report




                                              April 23, 2014

Report Number HR-MA-14-006
                                                                           April 23, 2014

                                              Corporate Succession Planning Program

                                                          Report Number HR-MA-14-006




BACKGROUND:
U.S. Postal Service workforce                  postal employees not in the program
demographics are rapidly changing and          and 2 percent were external hires.
a large percentage of its executives
could soon retire. Specifically, in fiscal     Our objective was to assess the CSP
year (FY) 2012, 35 percent of Postal           program and determine whether Postal
Service executives were eligible to retire     Service officials are effectively
and that number will grow to 49 percent        managing it to identify and develop
within 3 years. To ensure continuity of        potential leaders for executive
expertise in executive positions, the          management positions.
Postal Service must identify and
develop talented individuals to fill future    WHAT THE OIG FOUND:
vacancies. It uses its Corporate               The Postal Service has established a
Succession Planning (CSP) program to           CSP program that includes many best
identify and develop top performing            practices for successful organizations;
employees for new or expanded                  however, it can improve the program.
executive roles.
                                               Generally, the Postal Service effectively
About 30 percent of potential                  administers the CSP program to identify
successors are eligible to retire now,         and develop potential leaders to fill
and 73 percent will be eligible in the         executive management positions.
next 7 years. In FY 2012, management           However, we found that 289 days after
revised the program from a                     the approval deadline, management had
self-nominated to an                           not approved 621 of the 3,624
executive-nominated program and                developmental activities we reviewed
expanded it to include top performers          (17 percent). This occurred because
early in their career progression.             some managers did not make approving
                                               these activities a priority. These delays
About every 2 years, management                hinder potential successors’ ability to
nominate new employees to the                  develop skills they need for leadership
program and measure the program's              positions.
success by the availability of qualified
successors when vacancies arise. In FY         WHAT THE OIG RECOMMENDED:
2013 with a goal of 95 percent, the            We recommended management
Postal Service filled 94 percent of            enhance controls to ensure potential
vacant executive positions with                successors' developmental activities are
candidates from the CSP program. Of            approved in a timely manner.
the remaining 6 percent, 4 percent were        Link to review the entire report
April 23, 2014

MEMORANDUM FOR:            JEFFREY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND EXECUTIVE
                           VICE PRESIDENT



                                      E-Signed by Michael A. Magalski
                                   VERIFY authenticity with eSign Desktop




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory Report – Corporate Succession
                           Planning Program (Report Number HR-MA-14-006)

This report presents the results of our review of the U.S. Postal Service’s Corporate
Succession Planning Program (Project Number 13YG029HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director, Human
Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Corporate Succession Planning Program                                                                             HR-MA-14-006



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Best Practices ................................................................................................................. 2

Individual Development Plan Approval ............................................................................ 3

Other Matters .................................................................................................................. 4

Recommendation ............................................................................................................ 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Management’s Comments .......................................................................... 9
Corporate Succession Planning Program                                            HR-MA-14-006



Introduction

This report presents the results of our self-initiated review of the U.S. Postal Service’s
Corporate Succession Planning (CSP) program (Project Number 13YG029HR000). Our
objective was to assess the CSP program and determine whether Postal Service
officials are effectively managing it to identify and develop potential leaders to fill
executive management positions. See Appendix A for additional information about this
audit.

Because the Postal Service's workforce demographics are rapidly changing, it must
identify and develop talent for future executive positions. According to postal officials, in
fiscal year (FY) 2012, 35 percent of Postal Service executives were eligible to retire.
They estimate that number will increase to 49 percent within 3 years. To fill the
expected vacancies, the agency must make the most of its human capital. The Postal
Service uses the CSP program to identify and develop top performing employees for
new or expanded executive roles.

In FY 2012, management revised the program from a self-nominated to an
executive-nominated program and expanded it to include top performers early in their
career progression. About every 2 years, management nominate new employees to the
program and measure the program's success by the availability of qualified successors
when vacancies arise. In FY 2013, with a goal of 95 percent, the Postal Service filled 94
percent of vacant executive positions with candidates from the CSP program. Of the
remaining 6 percent, 4 percent were postal employees not in the program and 2 percent
were external hires.

Conclusion

We found the Postal Service has established a CSP program that includes many best
practices, but it can improve the program. The Postal Service’s CSP program
addresses strategic vision, top leadership support, early career development, diversity,
and retention, which are recognized by the U.S. Government Accountability Office
(GAO) as best practices for successful organizations. Generally, the Postal Service
effectively administers the CSP program to identify and develop potential leaders to fill
executive management vacancies. Potential successors stated that the program met
their expectations and was effective in developing them into leaders. However, we
found that management did not always timely approve developmental activities because
approving these activities was not a priority. These delays hindered potential
successors’ ability to develop skills they needed for leadership positions.




                                              1
Corporate Succession Planning Program                                                               HR-MA-14-006




Best Practices

The Postal Service incorporated best practices for successful organizations as identified
by the GAO. 1 The Postal Service CSP program includes:

   Receiving active support from top leadership – Postal Service executives identify
    desired skills and competencies for anticipated positions or talent pools. Executive
    managers 2 and officers nominate top talent for the CSP program and develop top
    performing employees. The executive leadership team (ELT) 3 ― after discussions
    with executive managers and officers ― selects candidates for the program. Also,
    executive managers must participate in the CSP program via a robust individual
    development plan (IDP) 4 that addresses their development needs.

   Linking to strategic planning – The Postal Service uses Delivering Results,
    Innovation Value and Efficiency (DRIVE) 5 initiatives to improve business strategy
    development and execution. DRIVE focuses on strategic initiatives the Postal
    Service will implement to meet its performance and financial goals. The Leadership
    Identification and Development DRIVE initiative includes a talent management
    strategy that identifies and develops the next generation of top performing leaders at
    all levels of the organization. The CSP program is part of the DRIVE initiative.

   Identifying talent from multiple organizational levels, early in careers or with critical
    skills – Postal Service executives identify potential successors based on leadership
    skills needed for the future of the organization. Potential successors must show
    leadership commitment to growth and development and certain managerial
    competencies, productivity, and business results. The Postal Service’s Leadership
    Development and Talent Management (LDTM 6) team has focused on strategies that
    identify, assess, and develop the next generation of leaders at all organizational
    levels. The Postal Service has programs7 that develop leadership candidates in
    positions not served by the CSP program. 8 During the FY 2012 cycle, management
    expanded the program to include top performers who are early in their career
    progression in the leadership pipeline. The expanded program also includes
1
  GAO-04-127T, Succession Planning and Management Is Critical Driver of Organizational Transformation,
October 1, 2003.
2
  A Postal Career Executive Service manager who identifies and assesses eligible employees during the talent
review process and recommends employees for successor pools within his or her function.
3
  A group composed of the postmaster general, the deputy postmaster general, and several senior officers who assist
in setting management policy and objectives and approving major plans, programs, and budgets.
4
  A tool that guides employees as they acquire new knowledge or skills, gain critical experience, and develop the
necessary leadership competencies.
5
  The Postal Service implemented DRIVE as a management process in FY 2010 to improve business strategy
development and execution through 24 active key initiatives. These initiatives focus on cutting costs, generating
revenue, improving customer experience, and engaging employees and other key stakeholders in organizational
change.
6
  This team supports the organization's strategic plan by identifying and developing the next generation of
high-potential leaders, ensuring a diverse and rich talent pipeline.
7
  These programs include the Executive and Administrative Schedule (EAS) Leadership Development program, the
Managerial Leadership program, and the Advanced Leadership program.
8
  The CSP considers employees in EAS positions 22 and above and Postal Career Executive Series I and II.

                                                        2
Corporate Succession Planning Program                                                                  HR-MA-14-006



     coaching and mentoring and more cross-functional developmental opportunities.
     Finally, in FY 2012, executives identified several talent pools to fill difficult positions
     and address specialized knowledge and critical skills needs.

    Addressing specific human capital challenges like diversity, leadership, and
     retention – In its FY 2013 annual report, 9 the Postal Service stated that it is
     committed to a diverse workforce, which means building an inclusive environment
     that respects the uniqueness of every individual and encourages the contributions of
     people from different backgrounds, experiences, and perspectives. According to a
     2013 diversity report, 10 potential successors in the CSP program are more diverse in
     race or national origin, age, and gender than current Postal Career Executive
     Service (PCES) 11 employees. Also, the LDTM stated the program is viewed as a
     retention tool. Talented people are more likely to stay when they are identified as
     potential leaders. According to a 2012 study, 12 developing leaders takes time and
     effort. Internal candidates are more likely to be successful than external candidates.
     External candidates are more likely to leave a job, are paid more, and have lower
     performance ratings within the first 2 years of hiring. Postal officials measure the
     success of the CSP program by the availability of potential qualified successors
     when vacancies rise. For FY 2013, the Postal Service implemented a goal of 95
     percent talent availability in the corporate pipeline. Management filled 94 percent 13
     of vacant executive positions with candidates from the CSP program during that
     period.

Individual Development Plan Approval

Managers did not always approve IDP activities in a timely manner. We determined that
17 percent of IDP activities were pending management approval even after the deadline
for approval was extended. 14 As shown in Table 1, of the 3,624 IDP activities we
reviewed, management had not approved 621 of them as of December 4, 2013, 289
days after the extended approval deadline. This occurred because the Postal Service
did not have adequate controls to ensure managers approved IDP activities on time.




9
   2013 Annual Report to Congress, dated January 28, 2013. Annual Report to Congress, January 28, 2013.
10
    Corporate Succession Planning Diversity Council Update to Postal Officials, February 2013.
11
    The PCES was established in 1979 to develop and maintain a highly motivated, competent group of individuals to
fill key executive-level positions and provide the leadership needed for the continued success of the Postal Service.
12
    Study conducted by Matthew Bidwell, assistant professor at the University of Pennsylvania’s Wharton School.
13
    215 of 229.
14
    The deadline for managers to approve IDP activities for the current 2-year cycle was January 31, 2013. It was
subsequently extended to February 15, 2013.

                                                          3
Corporate Succession Planning Program                                                         HR-MA-14-006




               Table 1: IDP Activities’ Approval Status as of December 4, 2013
                                                                             IDP
                                                                          Activities
                 IDP Activities               IDP Activities               Pending     Days
                   Reviewed                     Approved                  Approval     Late
                     3,624                     3,003 (83%)                621 (17%)     289
             Source: U.S. Postal Service Office of Inspector General (OIG) analysis.
The IDP is a crucial component of the CSP process. The potential successor and their
manager identify developmental activities and assignments to build the IDP. Managers
receive system-generated email reminders advising them that they have IDP activities
pending their review and approval. Potential successors cannot begin activities until
they are approved. Upon receiving approval for the IDP activities, potential successors
can record progress made on developmental activities and revise the IDP with their
manager’s consent.

Postal Service policy 15 requires that executive managers review and approve, approve
with changes, or decline the developmental activities identified in each potential
successor’s IDP. Managers have the authority to remove those potential successors
who are not committed to their development from the CSP program. However, there are
no consequences for managers who do not approve IDP activities on time.
According to postal officials, managers could delay IDP activity approvals for many
reasons. The main reason, however, is that managers do not make approving IDPs a
priority. These delays hinder potential successors’ ability to develop the skills and
experience they need for leadership positions.

Other Matters

A significant number of possible successors are eligible to retire in the next few years,
which might make it challenging to fill key positions. Specifically, we found that 30
percent of potential successors are eligible to retire now and 73 percent will be eligible
over the next 7 years. Further, nearly half of Postal Service executives will be eligible to
retire over the next 3 years and developing leaders at the executive level requires time.
Retirement eligibility is not part of the criteria management consider when identifying
potential successors for the CSP program. Postal Service officials said they do not
preclude potential successors from the CSP program because they are eligible to retire.
Further, successors' retirement eligibility dates may differ from actual retirement dates.

Management redesigned the CSP program for the 2012 open season with a focus on
expanding the leadership pipeline to include top performers who are early in their career
progression. Management added the “Ready in 5 Years” category and single position
talent pools so they could more easily assess the retirement risk of potential successors

15
     Management Instruction EL 384, Corporate Succession Planning, January 15, 2013.

                                                            4
Corporate Succession Planning Program                                            HR-MA-14-006



for key jobs. Additionally, management created new CSP reports to provide leaders with
better visibility into the leadership pipeline. In January 2014, postal officials initiated an
interim talent review to assess their talent pools midway through the 2-year cycle and
make appropriate adjustments.

We acknowledge the Postal Service’s efforts to mitigate the impact of retirement on the
availability of talent for future leadership roles. Management must ensure they use the
expanded resources to ensure the leadership pipeline remains viable.

Recommendation

We recommend the chief of Human Resources and executive vice president:

1. Enhance controls to ensure managers approve potential successors' individual
   development plans in a timely manner.

Management’s Comments

Management agreed with the recommendation and findings and stated it is a top priority
they have incorporated into DRIVE meetings. They have begun implementing
enhancements to the IDP system that will raise the awareness and tracking compliance
of timely approval of IDP activities. They plan to implement these enhancements by
June 30, 2014. See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation in the
report and corrective actions should resolve the issue identified in the report.




                                              5
Corporate Succession Planning Program                                                         HR-MA-14-006




                              Appendix A: Additional Information

Background

Retirement eligibility for executive management positions continues to be a significant
risk in the Postal Service. Because the Postal Service's workforce demographics are
rapidly changing, the Postal Service must identify and develop top talent for future
executive positions. According to postal officials, in FY 2012, 35 percent of Postal
Service executives were eligible to retire. They estimate that number will increase to 49
percent within 3 years. To fill the expected vacancies, the agency must make the most
of its human capital. The Postal Service uses the CSP program to identify, develop, and
prepare top performing employees for new or expanded executive roles in response to
this challenge. With many impending executive retirements and considering the
numerous years required to develop effective leaders at the executive level, the Postal
Service finds itself at a critical juncture in its history. Unless the agency invests in
identifying and developing potential successors to build a stronger leadership pipeline, it
risks significant operational disruptions.

The Postal Service uses the CSP program to address this challenge. The program's
main purpose is to develop and prepare candidates to fill vacant positions. The LDTM
team administers and oversees the program.

In FY 2012, the Postal Service streamlined the CSP program by moving from a
self-nominated program to an executive-nominated program, which no longer requires
employees to complete an extensive CSP application. Other program changes include:

    Implementing a continuous business process instead of a one-time event.
    Integrating talent management processes instead of stand-alone talent management
     tools.
    Requiring ownership and accountability by each executive instead of ownership by
     the Executive Review Board. 16
    Requiring identification of critical positions.
    Implementing structured career discussions instead of ad-hoc career discussions.
    Implementing annual leadership reports to the program management group.
About every 2 years, postal officials hold a CSP program open season during which all
EAS-22 17 and above employees are considered for nomination into the CSP program.
Using validated managerial competencies and a structured multi-step process to ensure
the fairness and objectivity of the nomination process, executive managers propose
employees who first are reviewed and then selected and placed by the ELT and Human
Resources department into executive positions.
16
   A group of PCES managers who review nominees during the CSP application process and recommend potential
successors within the officer’s function.
17
   Employees, such as postmasters and various managers, who manage postal operations.

                                                     6
Corporate Succession Planning Program                                                                       HR-MA-14-006



To manage the program, Postal Service officials use the CSP System to monitor and
track the progress of potential successors, monitor executive managers' participation,
maintain talent reviews, and track the overall status of the succession pools. Currently,
executives have defined 240 successor pools18 for leadership placement. Postal
officials measure the success of the CSP program by the availability of qualified
successors when vacancies arise. In FY 2013, with a goal of 95 percent, the Postal
Service filled 94 percent of vacant executive positions with candidates from the CSP
program. Of the remaining 6 percent, 4 percent were postal employees not in the
program and 2 percent were external hires.

Objective, Scope, and Methodology

Our objective was to assess the CSP program and determine whether Postal Service
officials are effectively managing it to identify and develop potential leaders to assume
executive management positions. Our scope included assessing how the Postal Service
administered the CSP program during FY 2012 19 through FY 2013.

To accomplish our objective, we:
    Interviewed Postal Service officials to gain an understanding of the CSP program.
    Reviewed applicable succession planning policies, procedures, and guidance.
    Reviewed prior audits related to our objective.
    Researched industry benchmark studies related to succession planning and
     compared them to the Postal Service's CSP program processes.
    Obtained and reviewed available statistics related to CSP program activities.
    Assessed internal controls related to the Postal Service’s succession planning
     activities to determine the program's effectiveness.
    Tracked two candidates through the CSP System to determine the data's validity
     and whether the required CSP steps had been completed.
    Interviewed four potential successors to determine their understanding of the
     program and whether it met their expectations.
We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data, reviewing existing information, comparing the data to
manual documentation, and tracking two candidates through the CSP System. We
determined that the data were sufficiently reliable for the purposes of this review.

We conducted this review from July 2013 through April 2014 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on March 24, 2014, and included their comments where appropriate.
18
   Successor pools include talent and critical position pools. A talent pool is a group of positions with similar functions,
roles, scope, and functional/technical requirements. Critical position pools are specific positions isolated from those
groups and deemed particularly crucial based on their impact on the business.
19
   The Postal Service revised the CSP program in FY 2012.

                                                             7
Corporate Succession Planning Program                                           HR-MA-14-006




Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this
review.




                                             8
Corporate Succession Planning Program                        HR-MA-14-006



                         Appendix B: Management’s Comments




                                         9
Corporate Succession Planning Program        HR-MA-14-006




                                        10
